HHS/OIG-Audit -"Review Of Fiscal Year 2000 Medicare Error Rate At Seguros De Servicios De Salud De Puerto Rico,"(A-02-00-01039)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review Of Fiscal Year 2000 Medicare Error Rate At Seguros De Servicios De Salud De Puerto Rico," (A-02-00-01039)
July 26, 2001
Complete
Text of Report is available in PDF format (198 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of  the review was to assess claims processing operations at Seguros de Servicios de Salud de Puerto
Rico that contributed to the preparation of the fiscal year (FY) 2000 combined financial statements for the Centers for
Medicare and Medicaid Services (CMS).  The review identified areas with respect to claims processing where corrective
actions are needed to comply with applicable laws and regulations and prevent material misstatement of the CMS financial
statements.  Specifically, our sample of 680 claims identified 68 claims that did not comply with Medicare laws and
regulations.  These errors were detected through medical review of supporting documentation and detailed testing by
OIG auditors.  Contributing significantly to the errors noted during the course of the review was the fact that provider
records did not completely and accurately support amounts reimbursed by Medicare.